FOR IMMEDIATE RELEASE                                                       August 29, 2013
Media Contact: (202-565-3908)

            El Paso, Texas Business Owner Sentenced to Home Confinement
          for Scheme to Defraud the Export-Import Bank of the United States
WASHINGTON, DC – The Office of Inspector General (OIG) for the Export-Import Bank of
the United States (Ex-Im Bank) announced that Victor Gonzalez was sentenced today to
ten-months’ home confinement for his role in a scheme to defraud Ex-Im Bank of
approximately $1,976,000.
Gonzalez was sentenced by Judge Kathleen Cardone in U.S. District Court in El Paso, TX.
Gonzalez pleaded guilty on August 25, 2011, to one count of money laundering conspiracy
and one count of money laundering – concealment. Gonzalez was also sentenced to five-
years’ of probation and was ordered to pay $1,976,320 in restitution and $3,801,833 in
forfeiture.
According to court documents, Gonzalez, a legal permanent resident alien residing in El
Paso, Texas, was the owner of Gaviv S.A., an El Paso based export company. Gonzalez
admitted that from early 2005 until May 2007, he was involved with other co-conspirators
in obtaining seven loans from a lending bank, all of which were guaranteed by Ex-Im Bank.
Gonzalez admitted that he acted as an exporter in some transactions and utilized his bank
account to transfer illicit Ex-Im Bank loan proceeds to buyers in Mexico. Gonzalez admitted
that he assisted four of the foreign buyers in preparing fraudulent shipping documents,
false invoices, false bills of lading, and other documents indicating the equipment had been
exported to Mexico. Gonzalez admitted that all of the loans he was involved in were
fraudulent and none of the United States goods listed on the invoices were ever shipped to
the Mexican buyers in any of the loans. Court records indicate Gonzales and others would
retain portions of the loan proceeds for their own use and benefit before transferring the
funds to other co-conspirators. As a result of the fraud, five of the loans defaulted causing
Ex-Im Bank to pay claims losses to the lending bank in the amount of $1,976,320.
The Department of Justice Criminal Division Fraud Section and the U.S. Attorney’s Office,
Western District of Texas, El Paso Division prosecuted the case. The case was investigated
by the Ex-Im Bank OIG, Homeland Security Investigations in El Paso, TX; Internal Revenue
Service-Criminal Investigations in Washington, D.C., and the U.S. Postal Inspections Service
in Washington, D.C.
Ex-Im Bank is an independent federal agency that helps create and maintain U.S. jobs by
filling gaps in private export financing. Ex-Im Bank provides a variety of financing
mechanisms, including working capital guarantees, export-credit insurance, and financing
to help foreign buyers purchase U.S. goods and services.
Ex-Im Bank OIG is an independent office within Ex-Im Bank. The OIG receives and
investigates complaints and information concerning violations of law, rules or regulations,


                      811 Vermont Avenue, NW Washington, D.C. 20571
fraud against Ex-Im Bank, mismanagement, waste of funds, and abuse of authority
connected with Ex-Im Bank's programs and operations. Additional information about the
OIG can be found at www.exim.gov/oig. Complaints and reports of waste, fraud, and abuse
related to Ex-Im Bank programs and operations can be reported to the OIG hotline at 888-
OIG-EXIM (888-644-3946) or via email at IGhotline@exim.gov.
